Audit Report




OIG-13-031

Audit of the Department of the Treasury’s Schedule of United
States Gold Reserves Held by Federal Reserve Banks as of
September 30, 2012

January 4, 2013




Office of
Inspector General
Department of the Treasury
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220



                                            January 4, 2013
     OFFICE OF
INSPECTOR GENERAL




           MEMORANDUM FOR NANI A. COLORETTI
                          ASSISTANT SECRETARY FOR MANAGEMENT

           FROM:                 Michael Fitzgerald
                                 Director, Financial Audits

           SUBJECT:              Audit of the Department of the Treasury’s Schedule of
                                 United States Gold Reserves Held by Federal Reserve Banks
                                 as of September 30, 2012

           The attached report presents the results of our audit of the Department of the
           Treasury’s (Treasury) Schedule of United States Gold Reserves Held by Federal
           Reserve Banks as of September 30, 2012 (the Schedule). The Schedule is the
           responsibility of Treasury management. We conducted our audit in accordance
           with Government Auditing Standards, issued by the Comptroller General of the
           United States. This was our first audit of the Schedule.

           We rendered an unqualified opinion on the Schedule as of September 30, 2012.
           We identified no material weaknesses in internal control over financial reporting
           and no instances of reportable noncompliance with laws and regulations.

           We appreciate the courtesy and cooperation provided to our staff during the audit.
           Should you have any questions, please contact me at (202) 927-5789, or a
           member of your staff may contact Ade Bankole, Audit Manager, Financial Audits at
           (202) 927-5329.

           Attachment
Contents




SECTION I - REPORT OF THE OFFICE OF INSPECTOR GENERAL

Independent Auditors’ Report ..................................................................... 1

   Management’s Responsibilities...................................................................... 1

   Scope of Audit ........................................................................................... 1

   Results of Audit.......................................................................................... 3

       Opinion on the Schedule .......................................................................... 3

       Internal Control ...................................................................................... 3

       Compliance with Laws and Regulations...................................................... 4


SECTION II – THE DEPARTMENT OF THE TREASURY’S SCHEDULE OF
             UNITED STATES GOLD RESERVES HELD BY FEDERAL
             RESERVE BANKS AS OF SEPTEMBER 30, 2012

   Schedule of United States Gold Reserves Held by
   Federal Reserve Banks ................................................................................. 5

   Notes to the Schedule of United States Gold Reserves Held by
   Federal Reserve Banks ................................................................................. 6


APPENDICES

   Appendix 1:         Major Contributors to this Report ............................................ 7

   Appendix 2:         Report Distribution ................................................................ 8




                        Audit of the Department of the Treasury’s Schedule of United States               Page i
                        Gold Reserves Held by Federal Reserve Banks as of September 30, 2012
                        (OIG-13-031)
               SECTION I -


REPORT OF THE OFFICE OF INSPECTOR GENERAL
                                                            Report of the
OIG                                                       Office of Inspector
                                                                General
The Department of the Treasury
Office of Inspector General


                          Independent Auditors’ Report

                  To the Assistant Secretary for Management:

                  We have audited the accompanying Department of the Treasury’s
                  Schedule of United States Gold Reserves Held by Federal Reserve
                  Banks as of September 30, 2012 (the Schedule). This report
                  presents our unqualified opinion on this Schedule. Our audit
                  disclosed no material weaknesses and no instances of reportable
                  noncompliance with laws and regulations.

Management’s Responsibilities
                  The Department of the Treasury’s (Treasury) management is
                  responsible for: (1) preparing the Schedule in conformity with U.S.
                  generally accepted accounting principles; (2) establishing and
                  maintaining internal control; and (3) complying with laws and
                  regulations applicable to the Schedule.

Scope of Audit
                  We conducted our audit in accordance with Government Auditing
                  Standards, issued by the Comptroller General of the United States.
                  Those standards require that we plan and perform the audit to
                  obtain reasonable assurance about whether the Schedule is free of
                  material misstatement. An audit includes examining, on a test
                  basis, evidence supporting the amounts and disclosures in the
                  Schedule. An audit also includes assessing the accounting
                  principles used and significant estimates made by management, as
                  well as evaluating the overall Schedule presentation. Our
                  responsibility is to express an opinion on the Schedule based on
                  our audit. We are also responsible for obtaining a sufficient
                  understanding of internal control over financial reporting to plan the


                  Audit of the Department of the Treasury’s Schedule of United States    Page 1
                  Gold Reserves Held by Federal Reserve Banks as of September 30, 2012
                  (OIG-13-031)
audit, and to test certain provisions of laws and regulations that
have a direct and material effect on the Schedule. We believe that
our audit provides a reasonable basis for our opinion and our
conclusions on internal control and compliance with laws and
regulations.

In planning and performing our audit, we considered Treasury’s
internal control over financial reporting related to the Schedule as a
basis for designing our auditing procedures for the purpose of
expressing our opinion on the Schedule, but not for the purpose of
expressing an opinion on the effectiveness of Treasury’s internal
control over financial reporting. Accordingly, we do not express an
opinion on the effectiveness of Treasury’s internal control over
financial reporting.

Because of limitations inherent in internal control, misstatements
due to error or fraud, losses, or noncompliance may nevertheless
occur and not be detected. We also caution that projecting our
evaluation to future periods is subject to the risk that controls may
become inadequate because of changes in conditions or that the
degree of compliance with controls may deteriorate. In addition, we
caution that our internal control testing may not be sufficient for
other purposes.

As part of obtaining reasonable assurance about whether the
Schedule is free of material misstatement, we performed tests of
Treasury’s compliance with certain provisions of laws and
regulations, noncompliance with which could have a direct and
material effect on the determination of Schedule amounts. We
limited our tests of compliance to those provisions and we did not
test compliance with all laws and regulations applicable to
Treasury. We caution that noncompliance may occur and not be
detected by those tests and that testing may not be sufficient for
other purposes. Providing an opinion on compliance with laws and
regulations was not an objective of our audit and, accordingly, we
do not express such an opinion.




Audit of the Department of the Treasury’s Schedule of United States    Page 2
Gold Reserves Held by Federal Reserve Banks as of September 30, 2012
(OIG-13-031)
Results of Audit
Opinion on the Schedule

                   In our opinion, the accompanying Schedule presents fairly, in all
                   material respects, the balance of the Department of the Treasury’s
                   United States Gold Reserves Held by Federal Reserve Banks as of
                   September 30, 2012, in conformity with U.S. generally accepted
                   accounting principles.

Internal Control

                   Internal control is a process, affected by those charged with
                   governance, management, and other personnel, designed to
                   provide reasonable assurance that the following objectives are
                   achieved:

                      •   Reliability of financial reporting - transactions are properly
                          recorded, processed, and summarized to permit the
                          preparation of the Schedule in accordance with United
                          States generally accepted accounting principles, and the
                          safeguarding of assets against loss from unauthorized
                          acquisition, use, or disposition;
                      •   Effectiveness and efficiency of operations; and
                      •   Compliance with applicable laws and regulations that could
                          have a direct and material effect on the Schedule.

                   A deficiency in internal control exists when the design or operation
                   of a control does not allow management or employees, in the
                   normal course of performing their assigned functions, to prevent,
                   or detect and correct misstatements on a timely basis. A material
                   weakness is a deficiency, or combination of deficiencies, in internal
                   control, such that there is a reasonable possibility that a material
                   misstatement of the Schedule will not be prevented, or detected
                   and corrected on a timely basis.

                   Our consideration of internal control over financial reporting was
                   for the limited purpose described in the Scope of Audit section
                   above and was not designed to identify all deficiencies in internal

                   Audit of the Department of the Treasury’s Schedule of United States    Page 3
                   Gold Reserves Held by Federal Reserve Banks as of September 30, 2012
                   (OIG-13-031)
               control that might be deficiencies, significant deficiencies or
               material weaknesses. We did not identify any deficiencies in
               internal control over financial reporting related to the Schedule that
               we consider to be material weaknesses, as defined above.

Compliance with Laws and Regulations

               Our tests of Treasury’s compliance with certain provisions of laws
               and regulations disclosed no instances of noncompliance that
               would be reportable under Government Auditing Standards.


                                                 ******


               Should you or your staff have any questions about this report, you
               may contact me at (202) 927-5789, or Ade Bankole, Manager,
               Financial Audits at (202) 927-5329. We appreciate the cooperation
               and courtesy extended to our staff.

               This report is intended solely for the information and use of the
               Department of the Treasury, the Office of Management and
               Budget, the Government Accountability Office, and Congress, and
               is not intended to be and should not be used by anyone other than
               these specified parties. However, this report is available as a
               matter of public record.


               /s/
               Michael Fitzgerald
               Director, Financial Audits

               December 18, 2012




               Audit of the Department of the Treasury’s Schedule of United States    Page 4
               Gold Reserves Held by Federal Reserve Banks as of September 30, 2012
               (OIG-13-031)
                 SECTION II -

THE DEPARTMENT OF THE TREASURY’S SCHEDULE OF
 UNITED STATES GOLD RESERVES HELD BY FEDERAL
    RESERVE BANKS AS OF SEPTEMBER 30, 2012
                     DEPARTMENT OF THE TREASURY
SCHEDULE OF UNITED STATES GOLD RESERVES HELD BY FEDERAL RESERVE BANKS
                        AS OF SEPTEMBER 30, 2012


                                                                        2012

United States gold reserves held by Federal Reserve Banks       $ 568,007,257




The accompanying notes are an integral part of this Schedule.




            Audit of the Department of the Treasury’s Schedule of United States    Page 5
            Gold Reserves Held by Federal Reserve Banks as of September 30, 2012
            (OIG-13-031)
                     DEPARTMENT OF THE TREASURY
 NOTES TO THE SCHEDULE OF UNITED STATES GOLD RESERVES HELD BY FEDERAL
                            RESERVE BANKS
                        AS OF SEPTEMBER 30, 2012


Note 1 Summary of Significant Accounting Policies

   A. Reporting Entity

       The Department of the Treasury (Department) is an executive agency of the United States
       government created by an Act (1 Stat.65) on September 2, 1789. Many subsequent acts affected
       the development of the Department, delegating new duties to its charge and establishing the
       numerous bureaus and divisions that now comprise the Department. The Department is
       responsible for promoting economic prosperity and ensuring the financial security of the United
       States. In carrying out its responsibilities, the Department is engaged in a wide range of activities
       including safeguarding the United States government’s gold reserves in accordance with
       31 U.S.C. § 5117.

   B. Basis of Presentation

       This schedule has been prepared to report the United States gold reserves held by Federal Reserve
       Banks (FRBs). The accounting principles used in the preparation of the accompanying schedule
       are issued by the Federal Accounting Standards Advisory Board, as the body authorized to
       establish generally accepted accounting principles for federal government entities. Accordingly
       the accompanying schedule is prepared in accordance with United States generally accepted
       accounting principles.

Note 2 United States Gold Reserves Held by Federal Reserve Banks

       The Federal Reserve Bank of New York holds 99.98% of the total United States-owned gold bars
       and coins held by FRBs within its vault. The remaining 0.02% of the United States-owned gold
       bars and coins held by FRBs are on display at the Federal Reserve Banks of Richmond, Atlanta,
       Kansas City, Minneapolis, San Francisco, New York and Dallas.

       United States-owned gold reserves are reported in this Schedule at the value stated in
       31 U.S.C. § 5117 (statutory rate) which is $42.2222 per fine troy ounce (FTO) of gold.

       At September 30, 2012, the market value of gold per the London Gold Fixing (PM) was $1,776.00
       per FTO. United States gold reserves held by Federal Reserve Banks consisted of the following at
       September 30, 2012:

                                FTO               Statutory Value                             Market Value

        Gold Bars          13,378,981.032            $ 564,890,013                         $ 23,761,070,313

        Gold Coins              73,829.500                3,117,244                             131,121,192
        Total              13,452,810.532            $ 568,007,257                         $ 23,892,191,505


            Audit of the Department of the Treasury’s Schedule of United States                Page 6
            Gold Reserves Held by Federal Reserve Banks as of September 30, 2012
            (OIG-13-031)
APPENDICES
Appendix 1
Major Contributors to this Report




Michael Fitzgerald, Director
Ade Bankole, Manager
Mark Levitt, Manager
Catherine Yi, Manager
Myung Han, Audit Manager
Rafael Cumba, Auditor-in-Charge
Rufus Etienne, Senior Auditor
Robert Hong, Auditor
Alicia Bruce, Referencer




Audit of the Department of the Treasury’s Schedule of United States    Page 7
Gold Reserves Held by Federal Reserve Banks as of September 30, 2012
(OIG-13-031)
           Appendix 2
           Report Distribution




   The Department of the Treasury

           Treasurer of the United States
           Deputy Chief Financial Officer
           Director, Financial Reporting and Policy

   United States Mint

           Acting Director
           Chief Financial Officer




Audit of the Department of the Treasury’s Schedule of United States    Page 8
Gold Reserves Held by Federal Reserve Banks as of September 30, 2012
(OIG-13-031)
